No. 19-122

 

 

IN THE

Supreme Court of the Anited States

DAVID THOMPSON; AARON DOWNING; and JIM CRAWFORD,

Petitioners,
v.

HEATHER HEBDON, in her Official Capacity as the
Executive Director of the Alaska Public Offices
Commission, et al.,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,998 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 9, 2019.

 

Colin Casey Hogai
Wilson-Epes Printing Co., Inc.
